      AUDIT REPORT

  U.S. Fish and Wildlife Service
  Federal Assistance Motorboat
Access Grants Administered by the
State of California, Department of
Fish and Game, from July 1, 2001
      through June 30, 2003




       Report No. R-GR-FWS-0003-2005
                            July 2005
              United States Department of the Interior
                        OFFICE OF INSPECTOR GENERAL
                                      External Audits
                            12030 Sunrise Valley Drive, Suite 230
                                   Reston, Virginia 20191
                                                                            July 15, 2005
                                    AUDIT REPORT


Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Motorboat Access Grants Administered by the State of California, Department of
           Fish and Game, from July 1, 2001 through June 30, 2003 (No. R-GR-FWS-0003-
           2005)

       This report presents the results of our audit of costs claimed by the State of California,
Department of Fish and Game (Department) under Federal Assistance Motorboat Access grants
from the U.S. Fish and Wildlife Service (FWS). The audit included reported outlays that totaled
approximately $14 million on FWS grants that were open during the State’s fiscal years ended
June 30, 2002 and 2003 (see Appendix 1).

       We conducted our audit in conjunction with our initial review of the Department’s non-
Motorboat Access Federal Assistance grants (Assignment No. R-GR-FWS-0018-2003). We
conducted a separate review of motorboat access grants in order to coordinate the review with
another State agency, the Department of Boating and Waterways, which was involved in the
administration of these grants.

        We questioned costs totaling $651,608, consisting of costs incurred prior to the grant
period ($445,944) and costs that were not supported by adequate documentation ($205,664). We
also found that the Department drew down Federal Assistance funds before the costs were
incurred.

       FWS Region 1 provided a response to a draft of this report on May 26, 2005, which
included a copy or the Department’s May 11, 2005 response to FWS. FWS and the Department
generally concurred with the audit findings and recommendations. We summarized the FWS
and Department responses after the recommendations and added our comments regarding the
responses. The status of the recommendations is summarized in Appendix 4.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by October 17, 2005. Your
response should include the information requested in Appendix 4. If you have any questions
regarding this report, please contact Mr. Tim Horsma, Audit Team Leader, at (916) 978-5668, or
me at (703) 487-5345.


cc:   Regional Director, Region 1
       U.S. Fish and Wildlife Service




                                              2
                                                 Introduction

Background
The Dingell-Johnson Sport Fish Restoration Act (Act) 1 authorized the U.S. Fish and Wildlife
Service (FWS) to provide Federal Assistance grants to states to enhance their sport fish
programs. The Act provided for FWS to reimburse the states up to 75 percent of the eligible
costs incurred under the grants. The Act also provided that at least 15 percent of a State’s Sport
Fish Restoration apportionment be allocated to motorboat access projects.

Scope, Objective, and Methodology
We conducted our audit at the California Department of Fish and Game (Department), the
Department’s Wildlife Conservation Board (WCB), and the Department of Boating and
Waterways (DBW) headquarters in Sacramento, California. WCB has the primary responsibility
for administering the Department’s Motorboat Access grants, and both WCB and DBW are
responsible for developing and monitoring design and construction contracts with local entities.
The audit included reported outlays that totaled approximately $14 million on 19 of the 21 2 FWS
grants that were open during the State’s fiscal years (SFYs) ended June 30, 2002 and 2003 (see
Appendix 1). We also visited five motorboat access projects (see Appendix 3).

The objective of our audit was to determine:

                ¾ the adequacy of the Department’s accounting system and related internal controls
                  with respect to Federal Assistance Motorboat Access grants, and
                ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                  Motorboat Access grant agreements with FWS.
We did not review the adequacy of the Department’s purchasing and labor system, the State’s
assent legislation, or the collection and use of license revenues because these areas were covered
under our other audit of the Department’s Federal Assistance grants (Report No. R-GR-FWS-
0018-2003).


We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants and interviews with employees to ensure that personnel costs charged


1
    As amended, 16 U.S.C. § 777.
2
    There were no reported outlays on 2 of the 21 grants during the audit period.



                                                            3
to the grants were supportable. We did not evaluate the economy, efficiency, or effectiveness of
the Department or WCB operations.


Prior Audit Coverage
On February 13, 1997, we issued audit report No. 97-E-450, “U.S. Fish and Wildlife Service
Federal Aid Grants to the State of California for Fiscal Years 1994 and 1995,” which transmitted
a report prepared by the Defense Contract Audit Agency (DCAA). The report contained a
finding that the State did not ensure that it had met its matching requirements before it drew
down Federal Assistance funds.

On July 15, 2005, we issued audit report No. R-GR-FWS-0018-2003, “Audit Report on the U.S.
Fish and Wildlife Service’s Federal Assistance Grants Administered by the State of California,
Department of Fish and Game, from July 1, 2001, through June 30, 2003”, the Department’s
non-motorboat access Federal Assistance grants. This report also contained a finding on the
Department’s monitoring of its matching costs.

While the findings in these reports were limited to the Department’s monitoring of its matching
share, our current review found that WCB was not monitoring all grant costs to ensure sufficient
costs had been incurred to support its drawdowns, as discussed in Finding A.

In addition, we reviewed the State of California’s Single Audit reports for SFYs 2001 and 2002.
The State’s Sport Fish Restoration Program was not selected for testing in the Single Audits.
These reports did not contain findings that would affect the Department’s Motorboat Access
grants.




                                                4
                                    Results of Audit
We found that the Department’s accounting system was generally adequate to account for grant
receipts and disbursements, except as discussed below in Finding A. However, we identified
questioned costs and other issues regarding the Department’s administration of its Federal
Assistance Motorboat Access program, as follows:

   A. We questioned costs totaling $651,608 consisting of:

           1. Costs of $445,944 on five grants that were incurred prior to the grant period (out-
           of-period costs).

           2. Costs of $205,664 on two grants, which were unsupported because the
           Department did not have documentation that the costs were incurred.

A. Questioned Costs
We questioned costs totaling $651,608 as follows:


1. Out-of-Period Costs - $445,944
We questioned costs totaling $445,945 that were incurred prior to the grant period. The Code of
Federal Regulations [43 CFR §12.63(a)] states, “Where a funding period is specified, a grantee
may charge to the award only costs resulting from obligations of the period...” In addition, OMB
Circular A-87, Attachment B, item 32, states that costs incurred prior to the effective date of the
award “are allowable… only with the written approval of the awarding agency.” There was no
documentation in the files showing that FWS had approved these costs. The questioned costs
were for engineering and design work on five grants, as summarized below (see Appendix 2 for
additional details):
                            Summary of Out-of-Period Costs
            Grant      Costs Incurred Prior      Effective Date      Initial Date Costs
           Number        to Grant Period           of Grant           Were Incurred

          F-95-B-1             $92,743          December 1998      August 1997
          F-97-B-1             116,136          October 2001       May 1999
          F-100-B-1             86,144          October 2000       1997
          F-112-B-1             29,806          April 2003         November 2002
          F-113-B-1            121,115          May 2003           March 2002
                              $445,944


We found that WCB did not have policies and procedures to ensure that costs charged to Federal


                                                 5
Assistance grants were incurred within the grant period.

       Recommendations
       We recommend that FWS:

       1    Resolve the out-of-period costs of $445,944 on the five grants.

       2.   Require the Department to develop policies and procedures to identify and
            incorporate pre-grant costs into Applications for Federal Assistance and ensure that
            costs claimed were incurred within the grant period.

       FWS Response
       FWS concurred with the finding and recommendations. FWS stated that the Department
       amended the grants, with the exception of Grant No. F-100-B-1, to include eligible pre-
       agreement costs. In addition, FWS suggested that the two recommendations related to
       polices and procedures be combined.

       Department Response

       The Department stated that it agreed with the finding and recommendations.

       Regarding Recommendation 1, the Department stated that FWS had approved
       amendments for four of the five grants to include pre-agreement costs, but the
       Department did not believe that it could amend Grant No. F-100-B-1 because it is closed.
       Regarding this grant, the Department stated that although an original grant application
       had expired, FWS approved a grant application prior to the beginning of construction that
       contained a budget, which outlined preconstruction costs. The Department also stated
       that in reviewing its records, WCB was uncertain as to whether pre-construction costs
       were included in the amounts of Federal Assistance drawn.

       Regarding Recommendation 2, the Department stated that it is revising its policy and
       procedures to verify the invoice period against the grant agreement period.

       OIG Comment
       Based on the responses, we combined the two recommendations related to policies and
       procedures for incorporating pre-grant costs into the grant agreement and ensuring costs
       claimed are within the grant period. The responses indicated that sufficient action has
       been taken for four of the five grants with out-of-period costs, but did not identify how
       the questioned costs on the remaining grant would be resolved. In addition, the
       Department stated that it is revising its policies and procedures; however, the revisions




                                                6
       have not been completed or reviewed by FWS. Therefore, we consider the finding
       unresolved and the recommendations not implemented.

2. Unsupported Costs - $205,664

The regulations [50 CFR 80.15(a)] require that “all costs must be supported by source documents
or other records, as necessary, to substantiate the application of funds.” WCB drew down funds
totaling $358,647 on three grants based on reported costs of $478,062 before receiving
documentation showing that the costs had been incurred. We are questioning costs of $205,664
on two of the grants because the WCB had not yet received documentation supporting these
expenditures as of the completion of our audit. The results of our review are summarized below.

                Summary of Unsupported Costs and Early Drawdowns

                 Total       Unsupported Claimed Costs     Total       Unsupported Drawdowns
 Grant No.   Costs Claimed   At Drawdown End of Audit    Drawdowns    At Drawdown End of Audit

 F-92-B-1      $913,000         $60,723      $10,664       $684,750     $45,542        $7,998
 F-101-B-1       195,000        195,000      195,000        146,351     146,351       146,351
 F-113-B-1     1,370,605        222,339         0         1,027,954     166,754         0
              $2,478,605       $478,062     $205,664     $1,859,055    $358,647      $154,349

Subsequent to its drawdown on Grant No. F-113-B-1, the Department received supporting
documentation for the remaining $222,339. However, as of the completion of our audit, the
Department had not received documentation supporting costs of $10,664 on Grant No. F-92-B-1
and $195,000 on Grant No. F-101-B-1. Accordingly, we have classified costs totaling
$205,664 as unsupported. The details for each grant follow:

       Grant F-92-B-1 In July 2002, WCB drew down $684,750 on this grant, which had
ended on June 30, 2002. The drawdown, which represented the full Federal share (75 percent) of
the $913,000 grant, was made before WCB received documentation showing that the costs had
been incurred. The project was a joint effort between DBW and Monterey County. In September
2002, subsequent to the drawdown, DBW submitted an invoice to WCB for the $684,750. These
costs were reported as incurred by Monterey County under its $913,000 contract with DBW.
However, DBW’s documentation showed payments to Monterey County totaling only $902,336,
or $10,664 less than the amount used by WCB as the basis for its drawdown. Accordingly, we
are questioning costs of $10,664 as unsupported. The unsupported drawdown related to these
costs was $7,998 (75 percent of $10,664).

The documentation also showed that Monterey County had incurred only $852,277 at the time of
the drawdown, or $60,723 less than the $913,000 amount used to compute the drawdown.
Therefore, WCB drew down $45,542 ($60,723 X .75) more than it was entitled to based on the
costs incurred at the time of the drawdown. In addition, DBW’s documentation showed that it
did not make the final payment to Monterey County until June 2003, a year after the drawdown.




                                                7
        Grant F-101-B-1 In September 2004, WCB made an interim drawdown of $146,351.
The grant project was a joint effort between WCB and the City of Redding (City). The
drawdown was based on 75 percent of a $195,000 advance that WCB made to the City in April
2002. The City was to subsequently invoice WCB and obtain approval to charge the advance for
its incurred costs. However, WCB had not received or approved any invoices from the City prior
to making the drawdown. Although a WCB program staff member said that the project is
substantially complete, the City has not yet provided invoices to WCB. Therefore, we are
questioning $195,000 as unsupported.

       Grant F-113-B-1 In September 2004, WCB made an interim drawdown of $1,027,954,
based on reported costs of $1,370,605. The project was a joint effort between the WCB, DBW,
and the Spalding Community Services District (District). The drawdown was based, in part, on
75 percent (the Federal share on the Department’s Motorboat Access grant agreements) of the
$1,218,570 of advances DBW had made to the District and invoiced WCB. The District was to
subsequently invoice DBW for its actual costs and obtain approval to charge the advance for
those costs. However, as of DBW’s September 7, 2004 invoice to WCB, DBW had only
approved District costs totaling $996,231 (to be charged against the advanced funds). Therefore,
reported costs of $222,339 ($1,218,570 less $996,231) had not been incurred and/or approved for
payment (from advanced funds) at the time of the drawdown. Subsequent to the drawdown, the
Department received documentation supporting the remaining $222,339.

We concluded that WCB did not have adequate policies and procedures to ensure that
drawdowns of Federal Assistance funds were based on costs incurred. According to WCB and
DBW staff, additional guidance will be developed to address this issue.

       Recommendations
       We recommend that FWS:

       1 Resolve the unsupported costs of $205,664 on the two grants.

       2. Require WCB to develop and implement policies and procedures to ensure that
          drawdowns of Federal Assistance funds are based on costs incurred prior to the
          drawdown.

       FWS Response
       FWS concurred with the finding and recommendations and stated that it is working with
       the Department to address needed policies and procedures and to obtain supporting
       documentation.




                                               8
Department Response
The Department stated that it agreed with the finding and recommendations.

The Department stated that it has received invoices from the City of Redding that support
the $195,000 claimed on Grant No. F-101-B-1 and that with the exception of Grant No.
F-92-B-1, all unsupported costs are now resolved. The Department also stated that it is
revising its policies and procedures to ensure that expenses incurred are fully documented
before Federal Assistance funds are drawn.

OIG Comments
Although FWS and the Department concurred with the finding and recommendations, the
responses did not identify how the remaining unsupported cost of $10,664 on Grant No.
F-92-B-1 would be resolved. In addition, the response indicates that the policies and
procedures are still being developed and therefore FWS has not yet reviewed or accepted
them. Therefore, we consider the finding unresolved and the recommendations not
implemented.




                                        9
                                                                 Appendix 1

 CALIFORNIA DEPARTMENT OF FISH AND GAME
        MOTORBOAT ACCESS GRANTS
 FINANCIAL SUMMARY OF REVIEW COVERAGE
      JULY 1, 2001 THROUGH JUNE 30, 2003

                                            Questioned Costs
     Grant      Grant         Total       Out-of-
    Number     Amount        Outlays      Period    Unsupported
F-76-B-1      $1,806,651    $1,702,041
F-85-B-1         731,000       628,934
F-87-B-1       1,074,520       839,369
F-92-B-1         913,000       913,000                 $10,664
F-94-B-1         430,000       430,000
F-95-B-1       3,071,000       175,303   $ 92,743
F-97-B-1       2,353,816     1,404,795   116,136
F-98-B-1         500,400       500,077
F-99-B-1         111,650       109,888
F-100-B-1      1,447,415     1,447,415     86,144
F-101-B-1        338,600       195,135                 195,000
F-102-B-1        293,568       272,262
F-104-B-1        278,780             0
F-105-B-1      2,459,100     2,459,100
F-106-B-1        767,280       767,280
F-107-B-1        436,304             0
F-108-B-1        659,379       407,485
F-109-B-1        175,700       175,700
F-110-B-1        182,800       128,998
F-112-B-1        800,600        60,000     29,806
F-113-B-1      3,141,133     1,370,605    121,115
     Total   $21,972,696   $13,987,387   $445,944    $205,664




                            10
                                                                                  Appendix 2

             CALIFORNIA DEPARTMENT OF FISH AND GAME
                    MOTORBOAT ACCESS GRANTS
                  DETAILS ON OUT-OF-PERIOD COSTS
                  JULY 1, 2001 THROUGH JUNE 30, 2003

        Grant F-95-B-1 In September 2004, the WCB made an interim drawdown of $131,478
based on recorded costs of $175,303. However, the recorded costs included $92,743 (from
DBW) for engineering and design that were incurred prior to the December 3, 1998, effective
date of the grant, including some costs that were incurred as early as August 1997.


        Grant F-97-B-1 In September 2004, the WCB made an interim drawdown of $1,053,596
based on recorded costs of $1,404,795. However, the recorded costs included $116,136 (from
DBW) for design work that were incurred prior to the October 1, 2001, effective date of the
grant, including some costs that were incurred as early as May 1999.


        Grant F-100-B-1 The Final Job Completion Report for the grant identified total project
costs of $1,714,116. However, our test of recorded grant transactions identified costs of $86,144
($37,388 from WCB and $48,756 from DBW) that were incurred prior to the October 1, 2000,
effective date of the grant, including some costs that were incurred as early as November 1997.
WCB reported total outlays of $1,447,415 (the amount approved under the grant) on the
Financial Status Report (SF 269). As WCB did not specifically identify which costs were
included in the $1,447,415 claimed, we could not determine whether the $86,144 was included in
the claimed amount.

        Grant F-112-B-1 In September 2004, WCB made an interim drawdown of $45,000,
based on recorded costs of $60,000. However, the recorded costs included $29,806 (from DBW)
for engineering and design that were incurred prior to the April 10, 2003, effective date of the
grant, including some costs that were incurred as early as November 2002.

       Grant F-113-B-1 In September 2004, WCB made an interim drawdown of $1,027,954
based on recorded costs of $1,370,605. However, the recorded costs included $121,115
($11,867 claimed by WCB and $109,248 claimed by DBW) for engineering and design that were
incurred prior to the May 12, 2003, effective date of the grant, including some costs that were
incurred as early as March 2002.




                                               11
                                                             Appendix 3

CALIFORNIA DEPARTMENT OF FISH AND GAME
      MOTORBOAT ACCESS GRANTS
         PROJECT SITES VISITED

              Belden’s Landing, Solano County

      City of Isleton Public Access, Sacramento County

          Clarksburg Public Access, Yolo County

  Lower Sherman Island Fishing Access, Sacramento County

  West Ninth Street Boat Launching Facility, Solano County




                            12
                                                                                 Appendix 4


            CALIFORNIA DEPARTMENT OF FISH AND GAME
                  MOTORBOAT ACCESS GRANTS
                   STATUS OF AUDIT FINDINGS
                    AND RECOMMENDATIONS


 Recommendation                   Status                       Action Required
A 1.1, A 1.2, A 2.1, and   Finding Unresolved and   Provide a corrective action plan that
A 2.2.                     Recommendations Not      identifies the actions taken or planned to
                           Implemented              resolve the finding and implement the
                                                    recommendations, as well as the basis for
                                                    disagreement with any recommendations.
                                                    The plan should also include the target
                                                    date and the official responsible for
                                                    implementation of each recommendation.
                                                    The unimplemented recommendations
                                                    remaining at the end of 90 days (after
                                                    October 17, 2005) will be referred to the
                                                    Assistant Secretary for Policy,
                                                    Management and Budget for resolution
                                                    and/or tracking of implementation.




                                            13
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
